  Office of Inspector General, Railroad Retirement Board 





           Strategic Initiatives

                      nitiatives

                Related to the

                           the

President’s Management Agenda

                        genda




                                       Martin J. Dickman 

                                       Inspector General 

Report No. 03-05                         March 31, 2003      

           S T R A T E G I C I N I T I A T I V E S

                                                 S
                   R E L A T E D T O
  O
     T H E P R E S I D E N T ’ S M A N A G E M E N T

                                                    T
                       A G E N D A
A
The Office of Inspector General (OIG) has previously issued a series of proposals related to the
Railroad Retirement Board (RRB) and its program activities. The RRB is an independent
agency in the executive branch of the Federal government and administers the health and
welfare provisions of the Railroad Retirement Act (RRA) and the Railroad Unemployment
Insurance Act (RUIA).


                                 AREAS OF CONCERN

                              Organizational Structure
                                    Field Service
                                    Tier I Benefits
                                  Agency Structure


The President’s Management Agenda cited five government-wide initiatives that are applicable
to every department and agency within the Federal government. The specific initiatives include:

       ●       Strategic Management of Human Capital 

       ●       Competitive Sourcing      

       ●       Improved Financial Performance 

       ●       Expanded E-Government        

       ●       Budget and Performance Integration 


The following analysis considers the applicability of the President’s Management Agenda to the
Railroad Retirement Board.

The initial OIG proposals recommended that the Board Members of the agency concentrate
their efforts on the organizational structure and the utilization of the agency’s Field Service staff.
Later proposals addressed the primary mission of the agency associated with tier I benefits and
changing the structure of the agency.

The customer base of the RRB has declined substantially and technology gains are available
but the agency continues to emphasize the same type of delivery system it used years ago.
                                 STRATEGIC INITIATIVES 




     RAILROAD RETIREMENT AND SURVIVORS’ IMPROVEMENT ACT OF 2001


The Railroad Retirement and Survivors’ Improvement Act of 2001 (RRSIA), Public Law
107-90, was enacted on December 21, 2001. The legislation provides for changes to the
benefit structure and financing of future benefits under the RRA. The financing provisions of
RRSIA include the establishment of the National Railroad Retirement Investment Trust (NRRIT)
that is responsible for the investments used to support retirement annuities, a pre-determined
structure for establishing the tier II tax rate, and the elimination of the supplemental annuity tax.

Enactment of the RRSIA is significant because it represents a marked departure from the
traditional role of the RRB. For the first time in the agency’s history, a significant activity has
been removed from the scope of the RRB. Essentially, the RRB has been relieved of its
investment authority, and the primary responsibility for investment decisions has been
transferred to a board of trustees that is independent of the Federal government.
               STRATEGIC INITIATIVES 





             TABLE OF CONTENTS




Previous Proposals………………………………………...               1



Reasons for Transformation of the Agency……………..    2



Organizational Structure…………………………………..            5



Field Service………………………………………………..                 10 



Tier I Benefits……………………………………………….                13 



Agency Structure……………………………………………                 17     



Recommendations………………………………………….                  18 

                       STRATEGIC INITIATIVES 




Previous Proposals

       The OIG has issued several proposals over the past eight years that relate to the
       President’s Management Agenda. These proposals and the specific
       recommendations were presented to foster strategic decision-making in light of
       changing demographic and environmental conditions. The OIG proposals
       focused on major initiatives that were intended to encourage significant changes
       in the way the agency conducts its operations rather than rely on the same
       methodology that has been employed over the past sixty years. The OIG
       believes it is appropriate, in light of this recent legislation and Administration
       initiatives to foster innovation, to revisit these recommendations.

       The previous proposals and major topics covered are indicated in the following
       table.



           Title and Date                     Topics and Recommendations


         Reinvention Phase I     Addressed weaknesses in the overall control environment
         January 24, 1995        and recommended consolidating the bureaus in the agency
                                 into five and reducing the number of field offices.


         Reinvention Phase II    Recommended the specific consolidation of existing bureaus
         September 26, 1995      into five functional entities, reiterated the recommendation
                                 for reducing the number of field offices and addressed
                                 changes to the organizational culture.


         Reinvention Phase III   Recommended the transfer of tier I benefit responsibilities to
         September 27, 1996      Social Security Administration.


         Reinvention Phase IV    Addressed the overall structure of the RRB and
         September 27, 1996      recommended that the Board pursue reorganization as a
                                 government corporation.


         Reinvention 2001        Evaluated the initial recommendations in light of changing
         May 25, 2001            demographics and the external environment as it related to
                                 the RRB. Each of the previous recommendations was
                                 repeated.




                                          1
                       STRATEGIC INITIATIVES 




Reasons for Transformation of the Agency

       The RRB has experienced a significant decline in the number of railroad workers
       covered by its programs, a reduction in the number of beneficiaries served by the
       programs it administers, and a projected decline in the resources available to it.
       In addition, there is continuing pressure from the Administration to reduce layers
       of management within Federal agencies, and to expand the use of technology to
       better serve the customers of Federal programs.

       The average number of railroad employees covered by the RRA in 1991 was
       approximately 285,000. By June 2002, employment had dropped to 227,000.
       The reduction in the number of covered employees is no surprise. Railroad
       employment has steadily declined from over one million employees in 1955 to
       the current levels. Based on RRB projections, average railroad employment in
       2020 could range from 116,000 to 189,000 although it is expected to be at
       153,000. This pattern is reflected in the following chart.



                               Average Employment

           1,400,000

           1,200,000
           1,000,000

              800,000
              600,000

              400,000
              200,000

                       0
                       1955 1960 1970 1980 1990 2000 2010 2020
                                                   Year




                                         2
                 STRATEGIC INITIATIVES 



The number of annuitants and beneficiaries receiving payments under the RRA
is also expected to decline from the present level of 644,000 to less than 421,000
by 2025. The total decline over a 35 year period indicates that approximately
half the number of customers will be served by the agency than was the case just
over ten years ago. The following chart illustrates the decline in the number of
annuitants and beneficiaries.



                       Annuitants and Beneficiaries

   1,000,000
     900,000
     800,000
     700,000
     600,000
     500,000
     400,000
     300,000
     200,000
     100,000
           0
           1990       1995     2000     2005     2010     2015     2020     2025
                                             Year




The financial projections for the RRB trust funds indicate that the resources
available for the payment of benefits and administrative expenses will decline or
at best grow modestly over the next 25 years. This potential solvency problem
means the RRB will become dependent on the Social Security Equivalent
Account to fund tier II benefits that are supposed to mirror the private employer
equivalent of benefits in other industries. The projected funding shortfall also
means that there will be an increase in the unfunded liability to provide for future
benefit entitlements.

Recent funding projections made by the agency indicate that, in two of the three
employment assumptions used, the account balance in the Railroad Retirement
Account and the NRRIT will continue to decline and, in one case, result in a
deficit.




                                   3
                          STRATEGIC INITIATIVES 



The following chart depicts the projected funding decline under the employment
assumptions that the agency describes as optimistic, moderate and pessimistic.




                                      Projected Funding

                    $30,000
                    $25,000
                    $20,000
   (in millions)




                    $15,000
                    $10,000
                     $5,000
                         $0
                    -$5,000
                   -$10,000
                   -$15,000
                              2003   2005     2010   2015    2020     2025
                                 Funding by Employment Assumption

                                     Optimistic   Moderate   Pessimistic




The projected demographic and financial situation should be sufficient to warrant
a major strategic initiative to change the operating environment of the RRB. The
agency is also required to respond to Administration directives to become more
results oriented, citizen-centered rather than bureaucratic by reducing
managerial layers, and to expand the use of technology to better serve
customers.




                                        4
                        STRATEGIC INITIATIVES 




Organizational Structure

        The OIG recommended, in previously issued proposals, that the RRB adopt a
        different organizational structure, consolidate the routine agency operations
        under the direction of a Chief Executive Officer, and that the three-member
        Board concentrate on the strategic issues facing the agency.

        The agency made several attempts to adopt a functional organizational structure
        similar to the one that the OIG recommended but remains a primarily
        bureaucratic form of entity. The functional design matches activities with related
        technical expertise and is the most prevalent in business and most other
        organizations. The existing agency structure, however, is intended to route all
        activity through an Executive Committee with input from the Assistants to the
        Board Members, and then defer to the full Board for the final decision. The RRB
        cannot effectively improve the decision-making process because the current
        structure is so top-heavy. Interim efforts to become less bureaucratic have not
        been successful because change was not initiated at the top of the organization.

        The initial OIG proposal recommended the adoption of a functional organizational
        structure and the elimination of 167 full-time equivalent employees at an
        estimated cost savings of $9.7 million annually. In addition, the OIG
        recommended a reduction of 255 field office employees with an annual savings
        of $10.6 million in salaries and benefits. The agency did not accept the
        recommendations regarding the staff reductions at that time contending that such
        radical reductions in staffing would seriously erode the quality of services being
        provided to the agency’s customers.

        The charts on the following pages show the agency structure in 1996, the current
        organization, and the OIG proposal. Only minimal changes have been made as a
        result of several reorganization efforts by the agency.




                                          5
                                   STRATEGIC INITIATIVES 




Agency Structure 1996

                 1996



                                    Office of                  The Board
                                    Inspector
                                     General



             Office of                Office of                         Office of
             Programs              General Counsel                    Administration




  Operations          Assessment                 Office of    Secretary to       Bureau of
                     and Training               Legislative    the Board        Information
                                                 Affairs                          Systems



  Resource                Policy                 Bureau of    Bureau of          Bureau of
 Management                and                     Law          Fiscal            Quality
   Center                Systems                              Operations         Assurance



    Field                                        Bureau of     Bureau of          Bureau of
   Service                                       Hearings     Supply and          Personnel
                                                and Appeals     Services



                                                               Bureau of         Office of
                                                              the Actuary         Equal
                                                                                Opportunity



                                                               Office of
                                                                Public
                                                               Affairs




                                                     6

                                  STRATEGIC INITIATIVES 




Current Agency Structure

               Structure


              Office of                       The Board
              Inspector
               General
                                                                        Chief Actuary      Office of Equal
                                                                         Bureau of          Opportunity
                                              Executive                   Actuary
                                              Committee



    Chief              Office of             Office of               Office of                  Chief
  Financial          Administration          General                 Programs                Information
   Officer                                   Counsel                                           Officer



 Bureau of                      Bureau of             Office of              Operations       Bureau of
   Fiscal                        Human               Legislative                             Information
 Operations                     Resources             Affairs                                  Services



                                 Bureau of           Bureau of               Policy and
                                Supply and          Hearings and              Systems
                                  Services            Appeals


                                 Office of               Secretary           Resource
                                  Public                   to the           Management
                                 Affairs                  Board               Center


                                                                             Assessment
                                                                            and Training



                                                                                  Field
                                                                                 Service




                                                          7

                              STRATEGIC INITIATIVES 




OIG Proposed Agency Structure

                    Structure


                                     Advisory Panel




  Office of                             Chief
  Inspector                            Executive
   General




  Office of           Financial         Information       Legal Affairs      Administrative
  Programs           Operations           Systems                              Services




              Budgetary restrictions in subsequent years forced the RRB to implement staff
              reductions. In FY 1995, the RRB utilized 1,483 full-time equivalent positions
              compared to the usage of 1,101 in FY 2002. The overall reduction of 382
              employees approximated that of the total staff reduction of 422 recommended by
              the OIG. At current cost levels, the salary and benefits savings related to the
              elimination of 382 positions approximates $28 million annually. The OIG
              believes an additional 30 positions, outside of the Field Service, can be
              eliminated by reducing management layers and delegating authority to the lowest
              possible levels. The elimination of those positions should produce annual
              savings of over $2 million that could be used to fund technology investments.

              The OIG has recently issued a report evaluating the overall control environment
              of the RRB. That evaluation identifies the organizational structure of the agency
              as a contributing factor for citing the overall control environment as a material
              weakness in internal control. The report also specifies that the current emphasis
              of the Board on routine administrative matters precludes the timely resolution of
              issues impacting financial reporting.




                                                   8
                STRATEGIC INITIATIVES 



Part of the President’s Management Agenda is directed to improving the strategic
management of human capital and includes the following specific initiatives:

● Make government citizen-centered by redistributing more staff to front line
service delivery;

● Reshape organizations to reduce the number of managers, reduce
organizational layers, reduce the time required to make decisions, change the
span of control and increase the number of employees who provide services to
citizens; and

● Adopt information technology systems to capture some of the knowledge and
skills lost as a result of increased retirements.


Estimates suggest that nearly 50% of the Federal workforce will be eligible to
retire within the next five years. In the case of the RRB, nearly 40% of the
agency’s employees will be eligible to retire within the next five years. The
agency has estimated that the number of employees retiring will be substantially
below the number of those eligible.

The potential threat remains that the RRB could face a shortage of qualified staff
if adequate selection, training and retention programs are not initiated in the near
term. The existing organizational structure and the inability to resolve issues
could be an impediment to human capital management efforts.

The previously discussed environmental issues facing the agency, the need to
fully implement the provisions of the RRSIA, compliance with Administration
directives and the potential that a large number of current RRB employees can
elect retirement within the next several years necessitate dramatic organizational
changes in the manner previously recommended by the OIG.




                                   9
                         STRATEGIC INITIATIVES 




Field Service

         The initial proposal issued by the OIG questioned the need for over 80 field
         service locations and recommended that the number of locations be reduced to
         ten. That initial recommendation prompted a review of the field service
         operations by the agency, and ultimately the number of locations was reduced to
         53. Nearly 330 employees remain in the field service providing services in a
         similar manner to that utilized in the early years of the agency’s history. The
         initial OIG proposal was made in light of demographic trends showing a rapid
         decline in the agency’s direct customer base.

         More detailed work is being handed off to the field service on the presumption
         that face to face contact is the primary and most beneficial form of customer
         service. This approach is contrary to the trends in most industries where
         centralization of services and greater use of electronic communications have
         been the trend.

PRIVATE SECTOR PRACTICES

         Many private sector businesses have taken advantage of electronic processing
         capabilities to centralize customer service operations. In addition, the increasing
         utilization of the Internet has substantially eliminated the need for direct
         intervention between customer and provider for many consumer products.
         Companies are able to leverage the advantages of electronic processing to
         provide greater business to business services such as the administration of
         savings and health insurance plans.

         Recently, a large international consulting firm announced that it has developed a
         program that can handle the entire retirement process for clients and has
         installed the service for a large financial holding company. The firm utilizes
         Internet access that allows employees to consider retirement options and choices
         at their own pace and on a schedule most convenient to their needs.

AGENCY PRACTICES

         Despite the technological gains being achieved in private industry and other
         government organizations, the RRB maintains that its customers are either
         unable or unwilling to utilize automated systems for enhanced service delivery.
         This seems ironic in comparison to the general population since most railroad
         workers are highly skilled professional workers.




                                            10
                  STRATEGIC INITIATIVES 



The existing field service structure is antiquated. Maintaining a presence that
purports to provide individualized personal service is counter productive to the
technological gains that are being used by most businesses. Nearly two-thirds of
the United States population has used the Internet. Government initiatives to
encourage e-business processes and work from home programs for employees
also support changing the methods and structure of the field service operations.

The nature of the services provided to the customers of the agency should also
dictate a change in the methodology applied. The decline in the number of
railroad workers covered by the RRA and the decline in the number of annuitants
and beneficiaries is one indication that a continued presence in 53 field locations
is inefficient. In addition, the time required to service an existing annuitant or
beneficiary should be far less than the time required to service employees who
are about to submit an initial application for benefits.

A review of the customer demographics for the RRB shows that approximately
90% of the active employees and beneficiaries could be serviced through six
district administrative centers.

These centers could be located in or near six states in the proximity of the
highest concentrations of active employees and program beneficiaries as shown
in the following chart.



                        Distribution of Employees and
                           Beneficiaries by District

  180,000
  160,000
  140,000
  120,000
  100,000
   80,000
   60,000
   40,000
   20,000
        0
                                                         a
                                           rk
                               s




                                                                  s
                 a




                                                                              a
                                                       ni
                             oi




                                                               xa
                    i




                                                                           id
                                        Yo
                 rn




                                                   va
                              in




                                                                           or
                                                             Te
             ifo



                          Ill




                                                  yl
                                     ew




                                                                         Fl
          al




                                                   s
                                                nn
                                    N
         C




                                             Pe




                                   Active Employees      Beneficiaries




                                      11
                 STRATEGIC INITIATIVES 



The RRB explores new methods of service delivery but continues to rely on a
personal presence in multiple locations as a primary method of communicating
with its customers. The attempts to provide additional service options become
duplicative and have not replaced or diminished the field service.

Potential alternatives to replace the current field service structure include:

Expanding electronic service capabilities to replace personal contact.

Pursuing options to co-locate offices with other government facilities,
railroad employers and employee representatives.

Developing additional opportunities for field service employees to
telecommute.

Providing expanded telecommunications services such as a centralized
800 telephone center.
              center


The above alternatives for service delivery encompass the primary goals of the
Administration’s E-Government initiative to:

    •	 Make it easy for citizens to obtain service and interact with the Federal
       government.

    •   Improve government efficiency and effectiveness.

    •   Improve government’s responsiveness to citizens.


The initial proposal recommended the elimination of 255 field service positions.
The original cost savings related to the reduction in staffing was in excess of $10
million per year. In current terms, the elimination of 255 positions would provide
annual savings in excess of $18 million for salaries and related expenses.




                                    12
                          STRATEGIC INITIATIVES 




Tier I Benefits

         The Railroad Retirement Act of 1974 established the present two-tiered system
         of providing retirement benefits to railroad employees covered by the RRA. The
         tier I benefits were intended to be the equivalent of social security benefits while
         the tier II benefits were intended to parallel the structure of benefits provided by
         other industrial retirement plans. At the time the two-tiered system was
         designed, provisions were made to protect the benefits accrued by some workers
         who had sufficient work credits to be vested in both the social security system
         and the railroad retirement system.

         Over time, most of the differences between the tier I portion of an annuity and the
         benefit that would have been paid under the social security system have
         dissipated. For the most part, a worker covered by either tier I or social security
         will pay the same taxes, the worker’s employer will have remitted the same
         amount of taxes, and the benefit coverage will be identical for the worker and any
         covered dependents.

         During FY 2002, the total financing sources available to the agency, plus the
         reimbursement for Social Security Administration (SSA) related benefits paid by
         the RRB, totaled $9.5 billion. Of this total, $6.6 billion, or 70%, related to social
         security benefits or the tier I equivalent. Similarly, the RRB processed almost $10
         billion in benefit payments during FY 2002. Social security equivalent benefits
         and payments made on behalf of SSA were $6.3 billion or 63% of the total.
         Regardless of the measure used, benefits or revenue, the tier I benefit structure
         and related benefits represent the most significant portion of the work performed
         by the RRB.

         The table on the following page illustrates the relationship of social security type
         benefits to total activity of the agency during the fiscal years noted. Financing
         sources and benefits have been adjusted to reflect the inclusion of payments
         made by the RRB on behalf of SSA.




                                            13
                  STRATEGIC INITIATIVES 




                                       RRB Financing

                                   2002            2000               1995
     SSA related
     financing                    $6,628          $6,098             $6,725
     sources

     Total financing              $9,465         $10,917             $10,836
     sources

     SSA % of total               70.0%           55.9%               62.1%
     financing
                                       RRB Benefits

     SSA related                  $6,285          $6,227             $5,976
     benefit
     payments

     Total benefit                $9,948          $9,507             $9,230
     payments

     SSA % of total               63.2%           65.5%               64.8%
     benefits 

     (Dollar amounts in millions.) 





Because of the similarities in structure between tier I annuities and social security
benefits, the RRB must duplicate the reporting, recordkeeping and benefit
payment capability that SSA has in place.

Typical of the redundancy that exists between the RRB and SSA is the
maintenance and continuing development of separate employer reporting
procedures and forms. Employers are required to submit reports to both
agencies including the reporting of employee service and compensation,
remittance of withholding taxes and payment of employment taxes. The RRB is
currently revising its paper-based employer reporting procedures and developing
an Internet application that perpetuates the duplication in reporting systems and
procedures.




                                       14
                            STRATEGIC INITIATIVES 




ALTERNATIVE SOLUTION


            Rather than continue the parochial interest in developing separate reporting
            systems, the RRB should be taking the initiative to identify how employer
            reporting can be simplified. A cross agency reporting task force including the
            RRB, Internal Revenue Service, and SSA should be able to substantially reduce
            or eliminate separate employer reporting related to the Railroad Retirement Act.
            Minor differences may exist in program requirements, such as the RRB crediting
            service in months versus calendar quarters for SSA, but these differences could
            be resolved without destroying the original intent of reducing the reporting
            burden.

Social Security Administration Operations

            The SSA currently pays retirement benefits to over 39 million people every month
            compared to the 644,000 being paid by the RRB. The SSA estimates that 153
            million people worked in covered employment during 2002. It defies logic to
            suggest that the RRB can achieve greater economy of scale in providing services
            to 227,000 covered workers as SSA can in providing coverage to 153 million
            workers.

            The volume of records processed by the SSA and its network of over 1,300 field
            offices strongly supports the idea that greater efficiency can be achieved by the
            merger of the RRB’s tier I benefit program. The potential for future changes to
            the social security program and the mirrored changes to the tier I program also
            suggest that change can best be accommodated by a single program
            administrator.

            The OIG remains convinced that a transfer of the tier I program to the SSA would
            best serve the RRB’s customers. The Board should become proactive in
            soliciting support for this recommendation as a long-term strategic issue. The
            existing Medicare administration and programs of the Railroad Unemployment
            and Insurance Act (RUIA) should remain under the RRB for the immediate future.
            The current administrative mechanisms in place for these programs represent a
            seamless, one-stop shopping opportunity for program beneficiaries. Changes to
            these programs could be considered later, but these programs should not
            become an excuse or impediment for undertaking meaningful strategic changes
            to the mission of the RRB.




                                              15
                          STRATEGIC INITIATIVES 




RRB Workforce

          The internal demographics of the RRB’s workforce also support the
          recommendation that a radical change from the historical way of doing business
          is in order. The agency is facing the potential that nearly 40% of the agency’s
          employees could retire within the next five years. Although historical retirement
          patterns may suggest that a massive number of retirements are not likely, this
          situation still presents the threat of a critical manpower shortage. As a smaller
          agency, the RRB may also face greater challenges to replace the retiring
          workforce than larger agencies may encounter.




                                            16
                       STRATEGIC INITIATIVES 




Agency Structure

       In the previous proposals, the OIG recommended that the Board pursue a
       revision in its basic entity structure to become a government corporation. The
       OIG continues to believe that a change in structure is desirable for the RRB to
       focus on the narrower mission of providing the tier II benefits and administering
       the RUIA programs.

       Passage of the RRSIA has provided a structure and oversight capability that may
       accommodate the longer term administrative needs of the RRB. Congress
       passed the RRSIA with the agreement and support of railroad management, rail
       labor and many of the annuitants and beneficiaries of the RRA programs. The
       legislation provides that the Trustees of the NRRIT are responsible for investing
       RRB trust funds, which impacts the long-term solvency of the RRA programs.

       If the long-term solvency can be placed under the direction of the Trustees, the
       oversight of a reduced administrative function could also exist under a similar
       type of trust structure. The existing Board should become strictly an advisory
       panel with administration of the RRB delegated to a Chief Executive Officer.

       The Board should initiate the necessary dialogue to effect the change in entity as
       part of the effort to transfer the tier I program to the SSA. This proposal is
       consistent with those previously made regarding the ongoing structure of the
       RRB but recognizes the current environment with the passage of the RRSIA.

       The appointment of a Chief Executive Officer is consistent with the general
       agreement of a recent roundtable discussion sponsored by the United States
       General Accounting Office. The general agreement, referring to a Chief
       Operating Officer, was that a single responsible individual could:

       Elevate attention on management issues,

       Integrate at a single point key management efforts, and

       Institutionalize accountability for addressing issues and leading changes in
       organizational culture.




                                          17
                      STRATEGIC INITIATIVES 




Recommendations

       The OIG updates and restates its position by recommending that the Board:

       1. 	   Complete the redesign of the organizational structure by eliminating
              management layers and delegating decision-making authority to a
              Chief Executive Officer and senior agency managers.

       2. 	   Reduce the size and scope of the field service operations and
              utilize existing technology to provide an expanded menu of services
              to the customers of the agency.

       3. 	   Develop and present to appropriate oversight officials a strategic
              plan to identify the steps needed to transfer the administration of
              tier I benefits to the Social Security Administration.

       4. 	   Request a change in the entity structure of the RRB to function
              as a government corporation under the direction of a Chief
              Executive Officer. Alternatively, the agency could be reorganized as
              part of the NRRIT.




The President’s Management Agenda

       Implementation of these recommendations is compatible with the principles of
       the President’s Management Agenda to improve the management and
       performance of the Federal government. The President has emphasized the
       need to streamline government services and eliminate duplication in program
       operations. His objectives focus on the need for government to be citizen-
       centered, results-oriented and market-based.

       The RRB must review its current organizational structure to address the
       President’s objectives. The expected number of employee retirements over the
       next five years could have a tremendous impact on agency operations. In
       addition, previous OIG recommendations to eliminate unnecessary layers of
       management should be given serious consideration. The agency should create
       a more streamlined and efficient organizational structure that emphasizes
       technology for providing the most efficient customer service alternatives.




                                        18
                STRATEGIC INITIATIVES 



Improved financial performance and more effective use of human capital
resources can also be achieved through the elimination of the overlap that exists
between the tier I structure of the RRB and Social Security. As stated previously,
the RRB should initiate action to identify how employer reporting can be
simplified by coordinating a comprehensive review with the Social Security
Administration and the Internal Revenue Service. The President’s Management
Agenda describes an allocation of budget resources to achieve the most effective
return. Clearly, the elimination of a duplicative program is consistent with this
objective. Such an initiative by several agencies that reduces the reporting
burden on employers and maximizes utilization of technology is consistent with
the goals of the President’s Management Agenda.

The RRB should also address the continuing decline in its direct customer base
by concentrating on program provisions that are unique to the railroad industry,
and function more like a commercial enterprise and focus on results.

A radical redesign of the field service is consistent with the E-Government
initiative of the President’s Management Agenda, cost effective in light of
declining fiscal resources, and compatible with the other OIG proposals made in
this analysis. The implementation of increased use of electronic processes can
significantly increase the efficiency of field service operations. The RRB should
eliminate its archaic procedures for field service offices.

The implementation of the above recommendations will allow the RRB to directly
address the objectives established by the President, and become a more efficient
and effective agency.




                                  19
